                                       News From
                             The Office of Inspector General
                         Corporation For National And Community Service




Investigations Lead To Seven Debarments

A former AmeriCorps program director found guilty of embezzlement, a former director who
pled guilty to using a government credit card to commit theft and two former members who pled
guilty to childcare fraud are among the persons investigated by the Office of Inspector General
(OIG) who were banned in 2004 from participation in Federal programs.
As the result of information developed by investigators and presented by the OIG to the
Corporation for National and Community Service (Corporation), the Corporation’s debarment
official debarred seven individuals during 2004.
Debarment is a government-wide program that bans individuals convicted of theft, fraud and
other serious crimes from participating in Federal programs for up to three years. The bans cover
procurement (Federal contracts) as well non-procurement programs (grants, cooperative
agreements, scholarships and loans).
Debarred persons have their names included on an exclusion list that is maintained by the General
Services Administration and used as a reference by all Federal agencies.
Individuals debarred by the Corporation during 2004 included:
-Donald McCoy, a former AmeriCorps program director who was found guilty of embezzling
more than $37,000 from a faith-based program in Coconut Grove, FL, was debarred for 12
months.
-Bernadette Teele, a former AmeriCorps member from Waterbury, CT, who pled guilty to
defrauding the AmeriCorps*Care childcare program of more than $10,000, was debarred for 24
months.
-Brande Henson, a former AmeriCorps program director from Frankfort, KY., who pled guilty to
theft and admitted after using her program credit card for more than $2,000 in personal expenses,
was debarred for 12 months.
-Susan Nelson, a former official with a nonprofit agency in Ladysmith, WI, and an accomplice,
Leonard Holmstead, who both pled guilty to embezzling more than $1 million from the agency
(including a small amount of AmeriCorps funds), were each debarred for 36 months.
-Richlet Valmord, a former AmeriCorps member from New York who pled guilty to defrauding
the AmeriCorps*Care childcare program of more than $2,000, was debarred for 24 months.
-Dorothy Guffey, a former bookkeeper for a nonprofit agency in New Castle, IN, who was
found guilty of embezzling more than $8,700 from the agency (including a small amount
of Foster Grandparent Program funds), was debarred for 12 months.
